Audit Report




OIG-12-056
SAFETY AND SOUNDNESS: Failed Bank Review of Home
Savings of America, Little Falls, Minnesota
June 18, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                                June 18, 2012


             OIG-12-056

             MEMORANDUM FOR THOMAS J. CURRY
                            COMPTROLLER OF THE CURRENCY

             FROM:                  Jeffrey Dye /s/
                                    Director, Banking Audits

             SUBJECT:               Failed Bank Review of Home Savings of America, Little Falls,
                                    Minnesota


             This memorandum presents the results of our review of the failure of Home
             Savings of America (Home Savings), a subsidiary of Home Savings Bancorp,
             located in Little Falls, Minnesota. Home Savings opened in September 1934 as a
             federal mutual savings association and was converted to a federal stock savings
             association in 1995. It had four offices, one in Little Falls and three others in
             California. Home Savings was regulated by the Office of Thrift Supervision (OTS)
             until July 21, 2011. On that date, the Office of the Comptroller of the Currency
             (OCC) assumed regulatory responsibilities for federal savings associations pursuant
             to P.L. 111-203. OCC closed Home Savings and appointed the Federal Deposit
             Insurance Corporation (FDIC) as receiver on February 24, 2012. As of
             December 31, 2011, the bank had $434.1 million in total assets. As of May 31,
             2012, FDIC estimated that the loss to the Deposit Insurance Fund to be
             $38.8 million.

             Because the loss to the Deposit Insurance Fund is less than $150 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Home Savings that was limited to (1) ascertaining the
             grounds identified by OCC for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver and (2) interviewed OCC
             examination personnel.

             We performed our fieldwork from February to April 2012. We conducted this
             performance audit in accordance with generally accepted government auditing
             standards. Those standards require that we plan and perform the audit to obtain
             sufficient, appropriate evidence to provide a reasonable basis for our findings and
OIG-12-056
Page 2

conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Cause of Home Savings of America’s Failure
OCC appointed FDIC receiver based primarily on the following grounds: (1) the bank
had experienced substantial dissipation of assets or earning due to unsafe or unsound
practices, (2) the bank had incurred or was likely to incur losses that will deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance, (3) the bank’s unsafe or unsound
practices or conditions were likely to seriously prejudice the interests of the Deposit
Insurance Fund, and (4) the bank was critically undercapitalized.

The primary cause of Home Savings’ failure was its pursuit of an aggressive growth
strategy, featuring option adjustable rate mortgages (ARM), without prudent
concentration risk management practices. In addition, most of Home Savings’ loans
were underwritten based on borrower’s stated income and assets, meaning the
borrower’s income and assets were not verified. This strategy resulted in significant
concentrations of higher-risk option ARMs secured by one-to-four family homes in
California. During the economic crisis, deteriorating conditions significantly reduced
home values in California, increased foreclosure rates, and contributed to a high
volume of negatively amortizing option ARM loans in Home Savings’ portfolio. As a
result, Home Savings’ asset quality significantly deteriorated, leading to large losses,
erosion of capital and, ultimately, failure.

OCC opened an Order of Investigation into certain questionable activities by the
management of Home Savings. After OCC notified the Treasury Inspector General’s
Office of Investigations (OI) of these questionable activities, OI also opened an
investigation. Both investigations are ongoing.


Conclusion
Based on our review of the causes of Home Savings’ failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. In making this determination, we took into consideration that the
federal savings association functions of OTS, Home Savings’ regulator until July
2011, transferred to OCC. We provided a draft of this memorandum to OCC
management for comment. In its response, OCC stated that it agreed with our
OIG-12-056
Page 3

conclusion as to the causes of Home Saving’s failure and that it had no concerns
with our determination regarding an in-depth review of the bank’s failure. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-12-056

       Attachment 1
Management Response
                                                       OIG-12-056

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
